IN THE SUPREME COURT OF THE UNITED STATES
_______________
No. 20-1029
CITY OF AUSTIN, TEXAS, PETITIONER
v.
REAGAN NATIONAL ADVERTISING OF AUSTIN, INC., ET AL.
_______________
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_______________
MOTION OF THE UNITED STATES FOR LEAVE TO PARTICIPATE
IN ORAL ARGUMENT AS AMICUS CURIAE, FOR DIVIDED ARGUMENT,
AND FOR ENLARGEMENT OF TIME FOR ARGUMENT
_______________
Pursuant to Rule 28 of the Rules of this Court, the Acting
Solicitor General, on behalf of the United States, respectfully
moves that the United States be granted leave to participate in
the oral argument in this case as an amicus curiae supporting
petitioner; that the time allotted for oral argument be enlarged
to 65 minutes; and that the United States be allowed 15 minutes of
argument time.

Petitioner and respondents have consented to this

motion, and petitioner has agreed to cede ten minutes of its
argument time to the United States.

2
This case concerns the constitutionality of a municipal sign
ordinance that distinguishes between an on-premises sign (a sign
connected to activities conducted at the site where the sign is
located) and an off-premises sign (a sign that lacks such a
connection).

The United States has a substantial interest in the

resolution of issues concerning the constitutionality of such
distinctions.

The Department of Transportation, for example,

implements the Highway Beautification Act of 1965, Pub. L. No. 89285, § 101, 79 Stat. 1028 (23 U.S.C. 131), which encourages States
to limit off-premises signs along certain major highways in the
interest

of

promoting

highway

safety

and

preserving

natural

beauty.

Although the ordinance at issue here differs from the

Highway Beautification Act, the analysis that the Court adopts in
this case may have ramifications for that Act, as well as other
federal regulations.
The United States has previously presented oral argument as
amicus

curiae

in

cases

concerning

the

constitutionality

of

municipal sign ordinances, including in Reed v. Town of Gilbert,
576 U.S. 155 (2015), on which the court of appeals chiefly relied
in holding the ordinance at issue here unconstitutional.
City of Ladue v. Gilleo, 512 U.S. 43 (1994).

See also

In light of the

substantial federal interest in the question presented, the United
States’ participation at oral argument would materially assist the
Court in its consideration of this case.

3
Respectfully submitted.
BRIAN H. FLETCHER
Acting Solicitor General
Counsel of Record
AUGUST 2021

